Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL



   BLUE CROSS BLUE SHIELD
  OF GEORGIA DID NOT CLAIM
  SOME ALLOWABLE MEDICARE
PENSION COSTS FOR FISCAL YEARS
      2006 THROUGH 2009



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley
                                               Regional Inspector General

                                                        June 2013
                                                      A-07-12-00398
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                           Notices

      THIS REPORT IS AVAILABLE TO THE PUBLIC
                      at https://oig.hhs.gov/

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

  The designation of financial or management practices as
  questionable, a recommendation for the disallowance of costs
  incurred or claimed, and any other conclusions and
  recommendations in this report represent the findings and
  opinions of OAS. Authorized officials of the HHS operating
  divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

       Blue Cross Blue Shield of Georgia, a terminated Medicare contractor, did not
       claim $72,458 of allowable pension costs for Medicare reimbursement for fiscal
       years 2006 through 2009.


WHY WE DID THIS REVIEW

Medicare contractors are eligible to be reimbursed a portion of their pension costs, which are
funded by the annual contributions that these contractors make to their pension plans. The
amount of pension costs that the Centers for Medicare & Medicaid Services (CMS) reimburses
to the contractors is determined by the cost reimbursement principles contained in the Federal
Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts. Previous
Office of Inspector General reviews have found that Medicare contractors have not always
complied with Federal requirements when claiming pension costs for Medicare reimbursement.

The objective of this review was to determine whether pension costs claimed by Blue Cross Blue
Shield of Georgia (BCBSGA) for Medicare reimbursement for fiscal years (FY) 2006 through
2009 were allowable and correctly claimed.

BACKGROUND

BCBSGA administered Medicare Part A operations under cost reimbursement contracts with
CMS until the contractual relationship was terminated effective May 31, 2009.

On June 30, 2006, WellPoint Health Networks, Inc., Pension Accumulation Plan assets were
merged into the WellPoint Cash Balance Pension Plan, which included the BCBSGA Medicare
segment. On January 1, 2007, WellPoint, Inc. (WellPoint), consolidated its Government
contracting segments into one subsidiary, called National Government Services, Inc. (NGS).
This consolidation did not include the BCBSGA Medicare segment, which was maintained
separately from other Medicare operations. Thus, although we are addressing this report to
NGS, we will associate the term BCBSGA with our finding and recommendation regarding the
costs claimed.

WHAT WE FOUND

BCBSGA claimed negative pension costs of $30,271 for Medicare reimbursement; however, we
determined that the allowable CAS-based pension costs during this period were $42,187. The
difference, $72,458, represented allowable Medicare pension costs that BCBSGA did not claim
on its Final Administrative Cost Proposals (FACP) for FYs 2006 through 2009. BCBSGA did
not claim these allowable Medicare pension costs primarily because it based its claim for
Medicare reimbursement on an amount that did not comply with the provisions of CAS 412 and
413.



Blue Cross Blue Shield of Georgia Pension Costs Claimed (A-07-12-00398)                          i
WHAT WE RECOMMEND

We recommend that BCBSGA revise its FACPs for FYs 2006 through 2009 to claim the
additional pension costs of $72,458.

AUDITEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, NGS concurred with our finding and recommendation.
BCBSGA’s Medicare contract was transitioned to NGS effective November 17, 2006; therefore,
NGS commented on our draft report.

NGS also made technical comments to enhance the accuracy and clarity of this report; we
accepted these suggestions and have incorporated them into this final report.




Blue Cross Blue Shield of Georgia Pension Costs Claimed (A-07-12-00398)                   ii
                                                     TABLE OF CONTENTS


INTRODUCTION .......................................................................................................................... 1

           Why We Did This Review .................................................................................................. 1

           Objective ............................................................................................................................. 1

           Background ......................................................................................................................... 1
                 Blue Cross Blue Shield of Georgia ......................................................................... 1
                 Medicare Reimbursement of Pension Costs ........................................................... 1

           How We Conducted This Review....................................................................................... 2

FINDING ........................................................................................................................................ 2

           Claimed Pension Costs ....................................................................................................... 2
           Allowable Pension Costs Not Claimed ............................................................................... 2

RECOMMENDATION .................................................................................................................. 3

AUDITEE COMMENTS................................................................................................................ 3

OFFICE OF INSPECTOR GENERAL RESPONSE ..................................................................... 3

APPENDIXES

    A: Audit Scope and Methodology ............................................................................................ 4

    B: Federal Requirements Related to Reimbursement of
         Pension Costs ................................................................................................................... 6

    C: Allowable Medicare Pension Costs for Blue Cross Blue Shield
         of Georgia for Fiscal Years 2006 Through 2009 ............................................................. 7

    D: Auditee Comments............................................................................................................. 10




Blue Cross Blue Shield of Georgia Pension Costs Claimed (A-07-12-00398)                                                                          iii
                                           INTRODUCTION

WHY WE DID THIS REVIEW

Medicare contractors are eligible to be reimbursed a portion of their pension costs, which are
funded by the annual contributions that these contractors make to their pension plans. The
amount of pension costs that the Centers for Medicare & Medicaid Services (CMS) reimburses
to the contractors is determined by the cost reimbursement principles contained in the Federal
Acquisition Regulation (FAR), Cost Accounting Standards (CAS), and Medicare contracts.
Previous Office of Inspector General reviews found that contractors have not always complied
with Federal requirements when claiming pension costs for Medicare reimbursement.

OBJECTIVE

Our objective was to determine whether pension costs claimed by Blue Cross Blue Shield of
Georgia (BCBSGA) for Medicare reimbursement for fiscal years (FY) 2006 through 2009 were
allowable and correctly claimed.

BACKGROUND

Blue Cross Blue Shield of Georgia

BCBSGA administered Medicare Part A operations under cost reimbursement contracts with
CMS until the contractual relationship was terminated effective May 31, 2009.

On June 30, 2006, WellPoint Health Networks, Inc., Pension Accumulation Plan assets were
merged into the WellPoint Cash Balance Pension Plan, which included the BCBSGA Medicare
segment. On January 1, 2007, WellPoint, Inc. (WellPoint), consolidated its Government
contracting segments into one subsidiary, called National Government Services, Inc. (NGS).
This consolidation did not include the BCBSGA Medicare segment, which was maintained
separately from other Medicare operations. Thus, although we are addressing this report to
NGS, we will associate the term BCBSGA with our finding and recommendation regarding the
costs claimed.

Medicare Reimbursement of Pension Costs

CMS reimburses a portion of Medicare contractors’ annual pension costs, which are funded by
the contributions that these contractors make to their pension plans. To be allowable for
Medicare reimbursement, pension costs must be (1) measured, assigned, and allocated in
accordance with CAS 412 and 413 and (2) funded as specified by part 31 of the FAR.

Beginning with FY 1988, CMS incorporated specific segmentation language into Medicare
contracts that requires contractors to use either an allocation method or a separate calculation
method to identify and claim pension costs for Medicare reimbursement. Under the allocation
method, the contractor determines total plan CAS-based pension costs and allocates a share to
Medicare. Under the separate calculation method, the contractor separately identifies the

Blue Cross Blue Shield of Georgia Pension Costs Claimed (A-07-12-00398)                            1
pension cost components for the Medicare segment. The contractor must use the separate
calculation method if its result is materially different from that of the allocation method.

HOW WE CONDUCTED THIS REVIEW

We reviewed $30,271 of negative pension costs claimed by BCBSGA for Medicare
reimbursement on its Final Administrative Cost Proposals (FACP) for FYs 2006 through 2009.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.

                                                  FINDING

BCBSGA claimed negative pension costs of $30,271 for Medicare reimbursement; however, we
determined that the allowable CAS-based pension costs during this period were $42,187. The
difference, $72,458, represented allowable Medicare pension costs that BCBSGA did not claim
on its FACPs for FYs 2006 through 2009. BCBSGA did not claim these allowable Medicare
pension costs primarily because it based its claim for Medicare reimbursement on an amount that
did not comply with the provisions of CAS 412 and 413.

CLAIMED PENSION COSTS

BCBSGA submitted negative Medicare pension costs of $30,271 for Medicare reimbursement on
its FACPs for FYs 2006 through 2009. 1 We calculated the allowable Medicare pension costs
based on separately computed CAS-based pension costs for the Medicare segment and the
“Other” segment in accordance with CAS 412 and 413. For details on the Federal requirements,
see Appendix B.

ALLOWABLE PENSION COSTS NOT CLAIMED

We determined that the allowable CAS-based pension costs for FYs 2006 through 2009 were
$42,187. Thus, BCBSGA did not claim $72,458 of allowable Medicare pension costs on its
FACPs for FYs 2006 through 2009. This underclaim occurred primarily because BCBSGA
based its claim for Medicare reimbursement on an amount that did not comply with the
provisions of CAS 412 and 413.




1
 The allowable pension costs for FY 2009 were attributable to the pension costs for October 1, 2008, through
May 31, 2009.

Blue Cross Blue Shield of Georgia Pension Costs Claimed (A-07-12-00398)                                        2
The table below compares allowable CAS-based pension costs with the pension costs claimed on
BCBSGA’s FACPs and reflected in its accounting documents. Appendix C contains additional
details on allowable pension costs.

         Table: Comparison of Allowable Pension Costs and Claimed Pension Costs

                                      Medicare Pension Costs
                                    Allowable        Claimed by
                  Fiscal Year       Per Audit         BCBSGA              Difference
                     2006                $103              $68,020            ($67,917)
                     2007                   11              (7,661)               7,672
                     2008               13,163            (63,436)               76,599
                     2009               28,910            (27,194)               56,104
                     Total             $42,187           ($30,271)              $72,458

                                        RECOMMENDATION

We recommend that BCBSGA revise its FACPs for FYs 2006 through 2009 to claim the
additional pension costs of $72,458.

                                       AUDITEE COMMENTS

In written comments on our draft report, NGS concurred with our finding and recommendation.
BCBSGA’s Medicare contract was transitioned to NGS effective November 17, 2006; therefore,
NGS commented on our draft report.

NGS also made technical comments to enhance the accuracy and clarity of this report. These
comments clarified information pertaining to entity and pension plan names.

NGS’s comments are included in their entirety as Appendix D.

                       OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing NGS’s comments, we accepted the technical comments and have incorporated
them into this final report.




Blue Cross Blue Shield of Georgia Pension Costs Claimed (A-07-12-00398)                      3
                      APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed $30,271 of negative pension costs that BCBSGA claimed for Medicare
reimbursement on its FACPs for FYs 2006 through 2009.

Achieving our objective did not require that we review BCBSGA’s overall internal control
structure. We reviewed the internal controls related to the pension costs claimed for Medicare
reimbursement to ensure that the pension costs were allocable in accordance with the CAS and
allowable in accordance with the FAR.

We completed our audit work in November and December 2012.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed the portions of the FAR, CAS, and Medicare contracts applicable to this audit;

    •   reviewed information provided by BCBSGA to identify the amount of pension costs
        claimed for Medicare reimbursement for FYs 2006 through 2009;

    •   used information that BCBSGA’s actuarial consulting firms provided, including
        information on assets, liabilities, normal costs, contributions, benefit payments,
        investment earnings, and administrative expenses;

    •   examined BCBSGA’s accounting records, pension plan documents, annual actuarial
        valuation reports, and Department of Labor/Internal Revenue Service Forms 5500;

    •   determined the extent to which BCBSGA funded CAS-based pension costs with
        contributions to the pension trust fund and accumulated prepayment credits;

    •   engaged the CMS Office of the Actuary to calculate the allocable pension costs based on
        the CAS (the calculations were based on separately computed CAS-based pension costs
        for the Medicare segment and the “Other” segment); and

    •   reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with the following audits and used the information
obtained during these audits during this review:

    •   BCBSGA’s segmentation of its Medicare segment pension assets (A-07-12-00397) and




Blue Cross Blue Shield of Georgia Pension Costs Claimed (A-07-12-00398)                           4
    •   NGS’s pension segmentation (A-07-13-00408) and pension costs claimed for Medicare
        reimbursement (A-07-13-00409).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Blue Cross Blue Shield of Georgia Pension Costs Claimed (A-07-12-00398)                        5
 APPENDIX B: FEDERAL REQUIREMENTS RELATED TO REIMBURSEMENT OF
                         PENSION COSTS

FEDERAL REGULATIONS

Federal regulations (FAR 31.205-6(j)) address allowability of pension costs and require that
contractors fund the pension costs assigned to contract periods by making contributions to the
pension plan.

Federal regulations (CAS 412) address the determination and measurement of pension cost
components. This regulation also addresses the assignment of pension costs to appropriate
accounting periods.

Federal regulations (CAS 413) address the valuation of pension assets, allocation of pension
costs to segments of an organization, adjustment of pension costs for actuarial gains and losses,
and assignment of gains and losses to cost accounting periods.

MEDICARE CONTRACTS

The Medicare contracts address the determination and allocation of pension costs. The contracts
state: “The calculation of and accounting for pension costs charged to this agreement/contract
are governed by the Federal Acquisition Regulation and Cost Accounting Standards 412 and
413.”




Blue Cross Blue Shield of Georgia Pension Costs Claimed (A-07-12-00398)                             6
                               APPENDIX C: ALLOWABLE MEDICARE PENSION COSTS FOR
                       BLUE CROSS BLUE SHIELD OF GEORGIA FOR FISCAL YEARS 2006 THROUGH 2009


                                                                                                                               Total
                                                                                                       NGS        BCBSGA      BCBSGA
                                                                       Total            “Other”      Medicare     Medicare    Medicare
           Date                      Description                      Company           Segment      Segment      Segment     Segment

           2005           Allocable Pension Costs              1/                       $5,079,557                      $0

           2006           Contributions                        2/                 $0            $0           $0         $0
                          Discount for Interest                3/                 $0            $0           $0         $0
     January 1, 2006      Present Value Contributions          4/                 $0            $0           $0         $0
                          Prepayment Credit Applied            5/         $5,146,959    $3,031,134   $2,115,825         $0
                          Present Value of Funding             6/         $5,146,959    $3,031,134   $2,115,825         $0

     January 1, 2006      CAS Funding Target                   7/         $5,146,959    $3,031,134   $2,115,825          $0
                          Percentage Funded                    8/                          100.00%      100.00%       0.00%
                          Funded Pension Cost                  9/                       $3,031,134   $2,115,825          $0
                          Allowable Interest                  10/                               $0           $0          $0
                          Allocable Pension Cost                                        $3,031,134   $2,115,825          $0
           2006           FY Allocable Pension Costs          11/                       $3,543,240                       $0
                          Medicare LOB* Percentage            12/                          0.0029%      N/A       99.9555%

                          Allowable Pension Cost              13/                            $103       N/A             $0        $103




                                                                                                                               Total
                                                                                                       NGS        BCBSGA      BCBSGA
                                                                       Total            “Other”      Medicare     Medicare    Medicare
           Date                      Description                      Company           Segment      Segment      Segment     Segment


           2007           Contributions                                    $326,001      $326,001            $0         $0
                          Discount for Interest                             ($16,283)    ($16,283)           $0         $0
     January 1, 2007      Present Value Contributions                      $309,718      $309,718            $0         $0
                          Prepayment Credit Applied                       $3,144,028           $0    $3,144,028         $0
                          Present Value of Funding                        $3,453,746     $309,718    $3,144,028         $0

     January 1, 2007      CAS Funding Target                              $3,144,028           $0    $3,144,028         $0
                          Percentage Funded                                               100.00%       100.00%      0.00%
                          Funded Pension Cost                                                  $0    $3,144,028         $0
                          Allowable Interest                                                   $0            $0         $0
                          Allocable Pension Cost              14/                              $0    $3,144,028         $0
           2007           FY Allocable Pension Costs                                     $757,784    $2,886,977         $0
                          Medicare LOB* Percentage                                        0.0014%       N/A        100.00%

                          Allowable Pension Cost                                              $11       N/A             $0         $11




Blue Cross Blue Shield of Georgia Pension Costs Claimed (A-07-12-00398)                                                                  7
                                                                                                                                Total
                                                                                                         NGS        BCBSGA     BCBSGA
                                                                       Total            “Other”        Medicare     Medicare   Medicare
           Date                      Description                      Company           Segment        Segment      Segment    Segment

           2008           Contributions                              $58,000,000        $58,000,000            $0         $0
                          Discount for Interest                      ($4,296,296)       ($4,296,296)           $0         $0
     January 1, 2008      Present Value Contributions                $53,703,704        $53,703,704            $0         $0
                          Prepayment Credit Applied                   $3,214,807            $92,672    $3,104,584    $17,551
                          Present Value of Funding                   $56,918,511        $53,796,376    $3,104,584    $17,551

     January 1, 2008      CAS Funding Target                              $3,214,807        $92,672    $3,104,584    $17,551
                          Percentage Funded                                                 100.00%       100.00%    100.00%
                          Funded Pension Cost                                               $92,672    $3,104,584    $17,551
                          Allowable Interest                                                     $0            $0         $0
                          Allocable Pension Cost                                            $92,672    $3,104,584    $17,551
           2008           FY Allocable Pension Costs                                        $69,504    $3,114,445    $13,163
                          Medicare LOB* Percentage                                          0.0000%       N/A        100.00%

                          Allowable Pension Cost                                                  $0      N/A        $13,163     $13,163




                                                                                                                                Total
                                                                                                         NGS        BCBSGA     BCBSGA
                                                                       Total            “Other”        Medicare     Medicare   Medicare
           Date                      Description                      Company           Segment        Segment      Segment    Segment

           2009           Contributions                              $33,000,000        $33,000,000            $0         $0
                          Discount for Interest                      ($2,437,844)       ($2,437,844)           $0         $0
     January 1, 2009      Present Value Contributions                $30,562,156        $30,562,156            $0         $0
                          Prepayment Credit Applied                  $82,566,293        $78,014,124    $4,528,167    $24,002
                          Present Value of Funding                  $113,128,449       $108,576,280    $4,528,167    $24,002

     January 1, 2009      CAS Funding Target                         $82,566,293        $78,014,124    $4,528,167    $24,002
                          Percentage Funded                                                 100.00%       100.00%    100.00%
                          Funded Pension Cost                                           $78,014,124    $4,528,167    $24,002
                          Allowable Interest                                                     $0            $0         $0
                          Allocable Pension Cost                                        $78,014,124    $4,528,167    $24,002
           2009           FY Allocable Pension Costs          15/                       $32,529,053    $4,172,271    $28,390
                          Medicare LOB* Percentage                                          0.0016%       N/A        100.00%

                          Allowable Pension Cost                                              $520        N/A        $28,390     $28,910

    * Line of business.




Blue Cross Blue Shield of Georgia Pension Costs Claimed (A-07-12-00398)                                                                   8
ENDNOTES

 1/ The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes. We obtained the 2005
    calendar year (CY) BCBSGA allocable pension cost from our prior BCBSGA review (A-07-10-00345), issued June 20, 2011. The 2005
    and 2006 “Other” segment costs represent the allocable costs for the BCBSGA Medicare contract from the WellPoint Health Networks,
    Inc., Pension Accumulation Plan.

 2/ We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form 5500 reports. The
    contributions included deposits made during the CY and accrued contributions deposited after the end of the CY but within the time
    allowed for filing tax returns. We determined the contributions allocated to the Medicare segment during the pension segmentation review
    (A-07-12-00397). The amounts shown for the “Other” segment represent the difference between the Total Company and the Medicare
    segment.

 3/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year to discount the
    contributions back to their beginning-of-the-year value. For purposes of this Appendix, we computed the interest as the difference between
    the present value of contributions (at the valuation interest rate) and actual contribution amounts.

 4/ The present value of contributions is the value of the contributions discounted from the date of deposit back to the first day of the CY. For
    purposes of this Appendix, we deemed deposits made after the end of the CY to have been made on the final day of the CY, consistent with
    the method mandated by the Employee Retirement Income Security Act used prior to the implementation of the Pension Protection Act.

 5/ A prepayment credit represents the accumulated value of premature funding from the previous year(s). A prepayment credit is created when
    contributions, plus interest, exceed the end-of-year CAS funding target. A prepayment credit is carried forward, with interest, to fund future
    CAS pension costs.

 6/ The present value of funding represents the present value of contributions plus prepayment credits. This is the amount of funding that is
    available to cover the CAS funding target measured at the first day of the CY.

 7/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of FAR 31.205-6(j)(2)(i).

 8/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the CY. Because any funding
    in excess of the CAS funding target is accounted for as a prepayment in accordance with CAS 412.50(c)(1) (as amended), the funded ratio
    may not exceed 100 percent. We computed the percentage funded as the present value of funding divided by the CAS funding target. For
    purposes of illustration, the percentage of funding has been rounded to four decimal places.

 9/ We computed the funded CAS-based pension cost as the CAS funding target multiplied by the percent funded.

10/ We assumed that interest on the funded CAS-based pension cost, less the prepayment credit, accrues in the same proportion as the interest
    on contributions bears to the present value of contributions. However, we limited the interest in accordance with FAR 31.205-6(j)(2)(iii),
    which does not permit the allowable interest to exceed the interest that would accrue if the CAS funding target, less the prepayment credit,
    were funded in four equal installments deposited within 30 days after the end of the quarter.

11/ We converted the allocable pension cost to an FY basis (October 1 through September 30). We calculated the FY pension costs as 1/4 of
    the prior year’s costs plus 3/4 of the current year’s costs.

12/ We calculated allowable pension costs of the Medicare and “Other” segments based on the Medicare line of business (LOB) percentage of
    each segment. We determined the Medicare LOB percentages based upon information provided by BCBSGA.

13/ We computed the allowable Medicare pension cost as an FY pension cost multiplied by the Medicare LOB percentage. In accordance with
    CAS 412 and 413, the total Medicare allowable pension costs charged to the Medicare contracts consisted of the Medicare segment’s direct
    pension costs plus “Other” segment pension costs attributable to indirect Medicare operations.

14/ The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes. Starting in 2007, the
    allocable pension cost is calculated for the WellPoint Cash Balance Pension Plan (includes the NGS and BCBSGA segments). WellPoint
    Health Networks, Inc., Pension Accumulation Plan assets were merged into the WellPoint Cash Balance Pension Plan on June 30, 2006.

15/ BCBSGA terminated its Medicare contract on May 31, 2009. Therefore, we calculated the FY 2009 Medicare segment pension cost as 1/4
    of the prior year’s cost plus the costs for January through May 2009. We calculated the FY 2009 “Other” segment pension cost as 1/4 of
    the prior year’s cost plus the costs for 5/12 (January 1 through May 31) of the current year.

Blue Cross Blue Shield of Georgia Pension Costs Claimed (A-07-12-00398)                                                                            9
                                      APPENDIX D: AUDITEE COMMENTS




           ~National c~vernment
           }II{"        serv1ces.
                                                                                                   MEDICARE
             8115 Knue Road
             Indianapolis, IN 46250

             www.wellpoint.com/ngs



             April 29, 2013

             Mr. PatrickJ. Cogley
             Regional Inspector General for Audit Services
             Office of Audit Services, Region VII
             601 East 12<h Street, Room 0429
             Kansas City, Missouri 64106

             Reference: Report Number A-07-12-00398

             Dear Mr. Cogley:

             We have received the draft audit report from the Inspector General entitled "Blue Cross Blue
             Shield of Georgia Did Not Claim Some Allowable Pension Costs for Fiscal Years 2006 Through
             2009" and thank you for the opportunity to respond.


             National Government Services, Inc. (NGS) concurs with the finding and recommendation
             outlined in the report and will work with the Centers for Medicare & Medicaid Services to seek
             reimbursement for the additional allowable pension costs identified in the report.

             In our review of the report, the following proposed revisions would enhance the accuracy and
             clarity of the report:

                          •   In the "Executive Summary" section (page i) within the "Background" caption
                              and in the "Introduction" section (page 1) within the "Background" caption,
                              please replace the second paragraph with the following which accurately
                              describes the organization:

                              On June 30, 2006, WellPoint Health Networks Inc. Pension Accumulation Plan
                              assets were merged into the WellPoint Cash Balance Pension Plan which
                              included the BCBSGA Medicare segment. On January 1, 2007, WellPoint, Inc.
                              ("WellPoint") consolidated its Government contracting segments into one
                              subsidiary called National Government Services, Inc. ("NGS"). This
                              consolidation did not include the BCBSGA Medicare segment, which was
                              maintained separately from other Medicare operations. Thus, although we are
                              addressing this report to N GS, we will associate the term BCBSGA with our
                              findings and recommendations regarding the segmentation.




Blue Cross Blue Shield of Georgia Pension Costs Claimed (A-07-12-00398)                                       10
           ....LNational G~vernme--.:it
            )II{"     serv1ces.
                                                                                                        MEDICARE
             8115 Knue Road
             Indianapolis, IN 46250

             W>NVV.wellpoint.com/ngs



             April 29, 2013
             Page 2

                          •   On page 9, in the first endnote (3'd line), please replace "WellPoint' s Pension
                              Accumulation Plan" with the correct plan name of "WellPoint Health Networks
                              Pension Accumulation Plan".

                          •   On page 9, please use the following verbiage to accurately reflect the pension
                              plan names conveyed in endnote #14:

                              The allocable CAS pension cost is the amount of pension cost that may be
                              allocated for contract cost purposes. Starting in 2007, the allocable pension cost
                              is calculated for the WellPoint Cash Balance Pension Plan (includes the N GS and
                              BCBSGA segments). WellPoint Health N etworks Pension Accumulation Plan
                              assets were merged into the WellPoint Cash Balance Pension Plan on June 30,
                              2006.

             We appreciate the opportunity to respond to this draft report. If you have any further
             questions, I can be reached at 414-459-5606 or via email at todd.reiger@wellpoint.com.

             Sincerely,
                                       Digitally signed by
                                       todd.rei ger@wellpoint.com
                                       DN: Ol= todd.reiger@wellpoint.com
                                       Date: 201 3.04.29 11:56:30 ·(l4'00"

             Todd W. Reiger, CPA
             Medicare Chief Financial Officer
             National Government Services, Inc.

             CC:              Michael Kapp - NGS
                              Dave Marshall- NGS
                              Jeff Hannah - NGS
                              Jim Maguire - NGS
                              Matt Hughes - NGS
                              Jim Elmore - NGS
                              Joanne Imel- WellPoint
                              Marilyn Bryan- CMS
                              Jenenne Tambke- OIG




Blue Cross Blue Shield of Georgia Pension Costs Claimed (A-07-12-00398)                                            11
